 ER-B-99-05

        AUDIT
       REPORT

                              WESTINGHOUSE SAVANNAH
                                 RIVER COMPANY’S
                                WITHDRAW OF FEES




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL          APRIL 1999
  OFFICE OF AUDIT SERVICES
                                       DEPARTMENT OF ENERGY
                                          Washington, DC 20585
                                              April 8, 1999

MEMORANDUM FOR THE MANAGER, SAVANNAH RIVER OPERATIONS OFFICE

FROM:         Terry L. Brendlinger, Manager (Signed)
              Eastern Regional Audit Office
              Office of Inspector General

SUBJECT:      INFORMATION: Audit Report on "Westinghouse Savannah River Company's
              Withdrawal of Fees"

BACKGROUND

As the operator of the Department's Savannah River Site, Westinghouse Savannah River Company
(Westinghouse) receives three types of fees: (1) award fees commensurate with the overall performance
rating, (2) Performance Based Incentive (PBI) fees for achieving measurable goals or defined tasks as
specified in annual operating plans, and (3) Cost Reduction Incentive Program (CRIP) fees for making
improvements in site operations that reduce total contract costs. The Department's Contracting Officer
notifies Westinghouse when fees are earned, and Westinghouse withdraws the authorized amounts from
the Department's letter-of-credit account.

The audit objective was to determine whether Westinghouse withdrew the appropriate amount of fees
from the letter-of-credit account in Fiscal Years (FY) 1997 and 1998.

RESULTS OF AUDIT

Westinghouse correctly withdrew $51 million in award fees and $47 million in PBI fees in FYs 1997 and
1998. However, it withdrew $170,400 more in CRIP fees than authorized by the Department.
Westinghouse made mistakes in 13 of 19 CRIP fee withdrawals, and withdrew fees that were not
authorized by the Department for at least 21 cost reduction proposals. The errors and unauthorized
withdrawals occurred because Westinghouse did not have formal procedures for processing and
recording CRIP fee withdrawals. The Department did not detect the errors and unauthorized
withdrawals because the Savannah River Operations Office (Operations Office) did not reconcile
Westinghouse's withdrawals to the amounts authorized by the Contracting Officer. At the completion of
our audit, Westinghouse returned $170,400 to the Department.

We recommend that Westinghouse establish formal procedures to ensure withdrawals of CRIP fees are
processed and recorded accurately and restricted to the amounts authorized by the Contracting Officer.
In addition, we recommend that the Operations Office enforce contract requirements and establish
procedures to reconcile CRIP fees withdrawn by Westinghouse to ensure withdrawn amounts are
accurate and approved by the Contracting Officer; and reconcile CRIP fee withdrawals made between
FYs 1992 and 1996, and recover amounts determined by the Contracting Officer to be unallowable, plus
interest.
                                                 -2-


Also, we found that contrary to the terms of the contract, Westinghouse did not share its CRIP fees
with senior managers who suggested or implemented cost reductions. Westinghouse determined that
it was inappropriate for senior managers to receive incentive pay for suggesting or implementing
improvements in operations for which they were directly responsible. As of January 1999,
Westinghouse had accrued a liability of $109,300 in CRIP fees which had not been distributed to
senior managers. As a result, Westinghouse retained control of Department funds to which it was not
contractually entitled. At the conclusion of our audit, Westinghouse returned control of the $109,300
withheld from the senior managers to the Department. However, Westinghouse did not return its
share of the fees, totaling $970,700.

We recommend that the Operations Office discontinue the practice of awarding fees to Westinghouse
for CRIP proposals suggested by senior managers and recover $970,700 from Westinghouse.

MANAGEMENT REACTION

Management concurred with the findings and four of the six recommendations. However,
Management did not concur with recommendations to discontinue awarding fees to Westinghouse for
CRIP proposals suggested by senior managers and to recover $970,700 from Westinghouse.
Management stated that the intent of the CRIP was to award Westinghouse for approved cost saving
suggestions that met the CRIP criteria, regardless of the source of the suggestion.

AUDITOR COMMENTS

We determined that by returning only the senior managers' share of CRIP fees to the Department,
Westinghouse did not comply with the terms of its contract and undermined the primary objective of
the CRIP, which is to provide an incentive for employees to make one-time improvements that reduce
contract costs. Also, we consider Westinghouse's return of the senior managers' share of the fees to
be an admission that the fees received for the proposal were inappropriate for the CRIP. Therefore,
Westinghouse should return its share of the fees as well as the senior managers' share.
WESTINGHOUSE SAVANNAH RIVER COMPANY'S
WITHDRAWAL OF FEES


TABLE OF
CONTENTS



               Overview

               Introduction and Objective .........................................................1

               Conclusions and Observations.................................................. 2


               Cost Reduction Incentive Program Fees

               Details of Finding ......................................................................4

               Recommendations and Comments ...........................................6


               Fees Shared With Senior Managers

               Details of Finding ......................................................................8

               Recommendations and Comments ...........................................9


               Appendix

               Scope and Methodology ..........................................................11
Overview

INTRODUCTION AND   Under the current contract, Westinghouse receives three types of fees
OBJECTIVE          for managing and operating the Savannah River Site. It receives (1)
                   award fees commensurate with its overall performance rating, (2) PBI
                   fees for achieving measurable goals or defined tasks as specified in
                   annual operating plans, and (3) CRIP fees for making improvements in
                   site operations that reduce total contract cost.

                   The Department authorized Westinghouse to withdraw $500,000 per
                   month from the letter-of-credit account in anticipation of earning award
                   fees. The Contracting Officer used the Award Fee Performance
                   Evaluation Plan to determine the amount of fees actually earned, and
                   notified Westinghouse, in writing, semiannually. Westinghouse then
                   made a withdrawal, or deposit, to adjust the previous monthly
                   withdrawals to the total authorized amount. Westinghouse received
                   $21 million in award fees in FY 1997 and $30 million in FY 1998.

                   To receive PBI fees, Westinghouse notified the Operations Office when
                   specific tasks were completed and the PBI goals were achieved. The
                   Operations Office verified that the tasks were completed satisfactorily
                   and, if so, the Contracting Officer notified Westinghouse, in writing, that
                   it had permission to withdraw PBI fees from the letter-of-credit account.
                   Westinghouse received $23 million in PBI fees in FY 1997 and
                   $24 million in FY 1998.

                   Westinghouse earned CRIP Fees by making improvements in site
                   operations that reduced the total cost of the contract. Proposals for
                   improving site operations were initiated by employees and submitted to
                   the Contracting Officer for approval. When CRIP proposals were
                   approved, the Contracting Officer notified Westinghouse, in writing,
                   that it had permission to withdraw the appropriate fee from the letter-of-
                   credit account. The contract required Westinghouse to give at least
                   10 percent of the total CRIP fees withdrawn from the account to the
                   employees who suggested or implemented the improvements. Over
                   3,100 payments were made to Westinghouse employees during
                   FYs 1997 and 1998. Westinghouse received $5 million in CRIP fees in
                   FY 1997 and $8 million in FY 1998.

                   The Office of Inspector General recently issued two reports regarding
                   fees at the Savannah River Site. Inspection Report INS-0-98-03, The
                   Fiscal Year 1996 Performance Based Incentive Program at the
                   Savannah River Operations Office, determined that the PBI program



Page 1                                                         Introduction and Objective
                  was established without any written policies or procedures for program
                  management and administration, and the FY 1996 Performance
                  Evaluation Plan was not approved until 4.5 months into the performance
                  period. Also, the inspection identified three instances of questionable fee
                  payments. Audit Report ER-B-98-08, The Cost Reduction Incentive
                  Program at the Savannah River Site, determined that the Operations
                  Office had not taken appropriate action in response to a Headquarters/
                  field assessment of the CRIP program; therefore, Westinghouse was still
                  receiving CRIP fees for non-innovative proposals. The audit concluded
                  that most of the savings identified under the CRIP Program occurred
                  through greater management focus on reducing costs, working smart, or
                  the results of budget constraints, as opposed to innovative changes.

                  The objective of this audit was to determine whether Westinghouse
                  withdrew the appropriate amount of fees from the letter-of-credit account
                  in FYs 1997 and 1998.

                  Westinghouse correctly withdrew $51 million in award fees and
CONCLUSIONS AND
                  $47 million in PBI fees in FYs 1997 and 1998. This represented
OBSERVATIONS
                  88 percent of the fees withdrawn by Westinghouse during the 2-year
                  period.

                  However, Westinghouse withdrew more CRIP fees than authorized by
                  the Department. Westinghouse made mistakes in 13 of 19 CRIP fee
                  withdrawals, and withdrew fees that were not authorized by the
                  Department for at least 21 cost reduction proposals. The errors occurred
                  because Westinghouse did not have formal procedures for processing and
                  recording CRIP fee withdrawals. The Department did not detect the
                  errors and unauthorized withdrawals because the Operations Office did
                  not reconcile the amounts withdrawn by Westinghouse to the amounts
                  authorized by the Contracting Officer. As a result, Westinghouse
                  withdrew $170,400 more than authorized by the Department in FYs 1997
                  and 1998. At the completion of our audit, Westinghouse returned
                  $170,400 to the Department. (Details of this finding start on page 4 of
                  the report.)

                  Also, contrary to the terms of the contract, Westinghouse did not share
                  its CRIP fees with senior managers who suggested or implemented cost
                  reductions. Westinghouse determined that it was inappropriate for senior
                  managers to receive incentive pay for suggesting or implementing
                  improvements in operations for which they were directly responsible. As




Page 2                                                    Conclusions and Observations
         of January 1999, Westinghouse had accrued a liability of $109,300 in
         CRIP fees, which had not been distributed to senior managers. As a
         result, Westinghouse retained control of Department funds to which it
         was not contractually entitled. At the conclusion of our audit,
         Westinghouse returned control of the $109,300 withheld from the senior
         managers to the Department. However, Westinghouse did not return
         its share of the fees totaling $970,700. (Details of this finding start on
         page 8 of the report.)

         The audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.



                                                 (Signed)

                                               Office of Inspector General




Page 3                                          Conclusions and Observations
COST REDUCTION INCENTIVE PROGRAM FEES


Withdrawals               Westinghouse withdrew more CRIP fees than authorized by the
Exceeded                  Department in FY 1997 and 1998. Westinghouse made errors in 13 of
Authorizations            19 CRIP fee withdrawals in the subject fiscal years. Five withdrawals
                          exceeded authorized amounts, and eight were less than authorized. In
                          one instance, the Contracting Officer authorized a CRIP fee withdrawal
                          of $2,686,500. Westinghouse withdrew $2,837,400 which exceeded the
                          total amount approved by $150,900. In another example, the
                          Contracting Officer authorized a CRIP fee withdrawal of $494,000, and
                          Westinghouse withdrew only $356,700. In this example, Westinghouse
                          discovered that an error was made and attempted to correct it by
                          withdrawing an additional $132,200. However, the total withdrawal
                          was still $5,100 less than the authorized amount. Neither Westinghouse
                          nor the Operations Office detected these errors.

                          In addition, Westinghouse often withdrew money from the letter-of-
                          credit account to pay employees their share of CRIP awards prior to
                          obtaining the Department’s approval. The employees were paid based
                          on Westinghouse’s estimate of savings claimed in the cost reduction
                          proposals. We examined payments to 25 employees who received large
                          awards in FYs 1997 and 1998 and determined that 13 of the 25
                          employees were paid a total of $72,500 before the Contracting Officer
                          authorized the CRIP fee withdrawal. One employee was paid $40,500
                          nearly a year in advance of the Contracting Officer's approval.

                          Westinghouse made at least 132 payments to contractor employees for
                          savings claimed in 21 cost reduction proposals that were disapproved by
                          the Contracting Officer. For example, after the Department’s technical
                          review process recommended disapproval for one cost reduction
                          proposal, Westinghouse appealed the disapproval and withdrew $3,900
                          from the letter-of-credit account to pay its employees in March 1998.
                          As of January 1999, the Operations Office had not ruled on the appeal,
                          and the employees’share was never returned to the letter-of-credit
                          account.

                          Clause I.85 of Westinghouse's contract requires that Westinghouse
Department Policy         obtain the Contracting Officer's approval before withdrawing fees from
Limited Fees to Amounts   the letter-of-credit account. Also, Departmental Order 534.1 requires
Authorized by the         that the Department and its integrated contractors maintain records with
Contracting Officer       sufficient details to account for all Departmental funds, assets, liabilities
                          and costs. The Field Element Chief Financial Officer is required to
                          establish and maintain the official accounting records, which must be
                          supported with valid documents and periodically reconciled to detect
                          and correct recording errors.

Page 4                                                                            Details of Finding
Westinghouse Did Not     Errors occurred because Westinghouse did not have formal
Have Formal Procedures   procedures for withdrawing, distributing and recording CRIP fees. In
                         FY 1997, Westinghouse used several informal methods for
                         withdrawing CRIP fees. One method was to withdraw the total
                         amount authorized in the Contracting Officer's determination letters
                         and then determine the correct share to be paid to suggesting or
                         implementing employees. Later, another method was adopted in
                         which Westinghouse withdrew fee payments separately for the
                         employees' and Westinghouse's shares. When this method was used,
                         the sum of both payments rarely equaled the total amount authorized
                         by the Contracting Officer.

                         Also, Westinghouse did not have formal or consistent methods for
                         recording its employees' share of savings. Between April and
                         October 1996, payments were made to employees prior to obtaining
                         the Contracting Officer's authorization and recorded in the accounting
                         records as allowable costs, even though many of the CRIP proposals
                         were never approved. Between November 1996 and July 1997,
                         payments were made to employees prior to obtaining the Contracting
                         Officer's authorization and recorded as unallowable costs. If the
                         proposals were approved, the payments were transferred to an
                         allowable account in accordance with the Contracting Officer's
                         authorization. Between July 1997 and December 1998,
                         Westinghouse recorded payments made to employees prior to
                         approval as allowable costs, then transferred the payments to an
                         unallowable account upon disapproval.

                         The Department did not detect Westinghouse's errors and
Department Did Not       unauthorized withdrawals because the Operations Office did not
Reconcile Amounts        reconcile the amounts withdrawn by Westinghouse to the amounts
Authorized or Enforce    authorized by the Contracting Officer or force Westinghouse to
Contract Requirements    follow contract requirements. The Operations Office attempted to
                         reconcile Westinghouse’s withdrawals using data obtained from
                         Westinghouse, but was unable to so. At least one Departmental
                         manager suspected that the data provided by Westinghouse for CRIP
                         fee withdrawals were erroneous. However, the manager could not
                         determine where individual errors occurred.



                         As a result of these conditions, Westinghouse withdrew $170,400




Page 5                                                                     Details of Finding
Westinghouse Withdrew   more than authorized in FYs 1997 and 1998. Westinghouse withdrew
More Than Authorized    $157,100 more than authorized as the result of errors, and $13,300 as
                        the result of withdrawals for employees' shares of CRIP proposals that
                        were disapproved by the Contracting Officer. At the completion of our
                        audit, Westinghouse returned $170,400 to the Department.

                        We recommend that the Manager, Savannah River Operations Office:
RECOMMENDATIONS         1. Direct Westinghouse to establish formal procedures to ensure
                           withdrawals of CRIP fees are processed and recorded accurately, are
                           not withdrawn before approval by the Contracting Officer, and are
                           restricted to the amounts approved by the Contracting Officer;

                        2. Enforce contract requirements for Westinghouse to obtain the
                           Contracting Officer's approval before withdrawing fees from the
                           letter-of-credit account;

                        3. Establish procedures for the Operations Office to reconcile CRIP
                           fees withdrawn by Westinghouse to ensure withdrawn amounts are
                           accurate and approved by the Contracting Officer; and

                        4. Require the Operations Office to reconcile CRIP fee withdrawals
                           made between FYs 1992 and 1996 and recover amounts determined
                           by the Contracting Officer to be unallowable, plus interest.

                        Management concurred with the finding and recommendations. The
                        Operations Office stated that it will direct Westinghouse to establish
MANAGEMENT              formal procedures to ensure that withdrawals of CRIP fees are
REACTION                processed and recorded accurately and are not withdrawn before
                        approval by the Contracting Officer, and that CRIP fees authorized are
                        reconciled with letter-of-credit drawdowns. The revised procedures will
                        require Westinghouse to establish a new general ledger account to be
                        used exclusively for CRIP fees. When fees are withdrawn,
                        Westinghouse will deposit them into this account. Distributions will be
                        made from this account to corporate partners and to payroll for
                        employees. This should provide a verifiable record of all fee
                        transactions. The procedures will be completed by June 30, 1999. In
                        addition, the Operations Office will direct Westinghouse to reconcile
                        CRIP fees withdrawn during FYs 1992 through 1996, correct any
                        error(s) discovered, and complete this reconcilliation by June 1, 1999.




Page 6                                                   Recommendations and Comments
                   The Operations Office will review the reconcilliation and recover any
                   amounts determined to be unallowable with approprite interest.

AUDITOR COMMENTS   Management's reaction to the finding is fully responsive. When
                   implemented, management's intended actions should reduce the risk of
                   future errors in CRIP fee transactions.




Page 7                                              Recommendations and Comments
FEES SHARED WITH SENIOR MANAGERS


Westinghouse Did Not       Westinghouse withheld CRIP fees owed to some senior managers for
Share CRIP Fees With       suggesting or implementing cost reduction proposals. Westinghouse
Senior Managers            generally withheld CRIP fees owed to exempt employees in pay grades
                           40 and above. Senior managers in these pay grades typically included
                           program managers and department heads. Many of the senior
                           managers in these pay grades were "incentive grade" employees and
                           may have submitted suggestions that directly impacted the programs
                           and activities for which they were directly responsible, and for which
                           they received incentive pay.

                           For example, one of the CRIP proposals for which the suggestors' share
                           was not distributed was submitted by an inventory manager and a
                           principle material engineer. The proposal affected the department
                           under the inventory manager's direct control. The proposal suggested
                           that Westinghouse eliminate nonessential inventory items, such as
                           styrofoam cups, aluminum foil, napkins, and calendars. Westinghouse
                           was awarded $18,800 for the proposal, of which the suggestors' share
                           was $1,900. Neither the inventory manager nor the principle material
                           engineer received their share of the CRIP fee award.

                           In September 1998, Westinghouse established a “Management Driven
                           Hard Dollar Savings Account" to accumulate the undistributed CRIP
                           fees. Westinghouse stated that it intended to pay the funds collected in
                           the account to all employees after the account had accumulated an
                           undetermined amount. As of January 1999, the undistributed CRIP
                           fees totaled $109,300 for 8 CRIP proposals.

                           Contract terms require Westinghouse to distribute not less than
Contract Requires          10 percent of the CRIP fee award to the employees involved in
Distribution to            identifying or achieving the causal cost reduction. Not distributing the
Suggesting/Implementing    suggestors' share, or distributing it to employees not involved in
Employees                  identifying or achieving the cost reduction, is contractually unallowable.

                           Despite contractual requirements, Westinghouse believed it was
                           inappropriate to pay senior managers for submitting suggestions to
Westinghouse Believed It   reduce the cost of operations for which the managers were directly
Was Inappropriate to Pay   responsible. One manager stated that Westinghouse was embarrassed
Senior Managers            to allow its senior managers to receive incentive pay for suggestions
                           that resulted in CRIP savings.




Page 8                                                                          Details of Finding
Westinghouse          As a result, Westinghouse retained Department funds to which it was
Improperly Retained   not contractually entitled. At the conclusion of the audit,
Funds                 Westinghouse returned $109,300 to the Department for the CRIP fees
                      withheld from senior managers. However, Westinghouse did not return
                      its portion of the CRIP fees, totaling $970,700.

                      We believe it is inappropriate for Westinghouse to return only the
                      senior managers' share of the fees to the Department. The terms of the
                      contract require Westinghouse to distribute at least 10 percent of all
                      CRIP fees to the employees who suggested or implemented the cost
                      reductions. By returning only the senior managers' share of the fees,
                      Westinghouse is in noncompliance with the contract terms. Also,
                      Westinghouse has undermined the primary objective of the CRIP,
                      which is to provide an incentive for employees to make one-time
                      improvements that reduce contract costs.

                      Further, we consider Westinghouse's actions to be an admission that the
                      fees received for the senior managers' proposals were inappropriate for
                      reimbursement under the CRIP. We concluded in Audit Report ER-B-
                      98-08 that the Department provided CRIP awards to Westinghouse for
                      non-innovative proposals that were typical of the types of actions taken
                      by managers in the Government and private industry to avoid waste and
                      inefficiency. We recommended that the Operations Office discontinue
                      the practice of paying CRIP fees for non-innovative proposals, because
                      cash incentives should not be required to motivate Westinghouse to
                      implement business practices that are commonly used by other
                      Government contractors and private industry. The Operations Office
                      stated that the recommendation could not be implemented without first
                      modifying the contract or obtaining Westinghouse's concurrence. We
                      consider Westinghouse's return of the senior managers' share of the fees
                      to be an admission that the fees received for the proposals were
                      inappropriate. The Department should consider Westinghouse's share
                      of the fees to be inappropriate for the same reason Westinghouse
                      determined the senior managers' share to be inappropriate.

                      We recommend that the Manager, Savannah River Operations Office
RECOMMENDATIONS
                      1. Discontinue the practice of awarding fees to Westinghouse for
                         CRIP proposals suggested by senior managers, and

                      2. Recover Westinghouse's share of CRIP fees associated with the
                         $109,300 in fees withheld from senior managers.



Page 9                                                 Recommendations and Comments
MANAGEMENT         Management concurred with the finding that Westinghouse improperly
REACTION           retained CRIP fees withheld from senior managers. However,
                   Management did not concur with the recommendations. The
                   Operations Office stated that the intent of the CRIP was to reward
                   Westinghouse for approved cost saving suggestions that met the CRIP
                   criteria, regardless of the source of the suggestion. Nevertheless, the
                   Operations Office accepted the Westinghouse position that senior
                   managers are already compensated under special incentive programs
                   and, therefore, providing additional payments to these employees under
                   the CRIP is not appropriate. The Operations Office stated that it will
                   direct Westinghouse to establish formal procedures to reaffirm the
                   practice of not awarding fees to senior managers. The procedures will
                   be completed by April 30, 1999.

                   We determined that by returning only the senior managers' share of
AUDITOR COMMENTS   CRIP fees to the Department, Westinghouse did not comply with the
                   terms of its contract and undermined the primary objective of the CRIP,
                   which is to provide an incentive for employees to make one-time
                   improvements that reduce contract costs. Also, we consider
                   Westinghouse's return of the senior managers' share of the fees to be an
                   admission that the fees received for the proposals were inappropriate
                   for the CRIP. Therefore, Westinghouse should return its share of the
                   fees as well as the senior managers' share.




Page 10                                             Recommendations and Comments
Appendix

SCOPE         The audit was performed between November 16, 1998, and January 22,
              1999, at the Savannah River Site near Aiken, South Carolina. The audit
              covered award fees, PBI fees, and CRIP fees withdrawn by
              Westinghouse in FYs 1997 and 1998.

              To accomplish the audit objective, we:
METHODOLOGY
              • Reviewed Westinghouse's contract clauses relating to fees;

              • Identified and reviewed accounting systems used by Westinghouse
                for recording fees;

              • Assessed controls over the approval and payment of fees;

              • Examined supporting records such as fee determination letters,
                invoices to the letter of credit, and payroll data; and

              • Held discussions with officials from the Operations Office and
                Westinghouse regarding the administration of and accounting for
                fees.

              The audit was performed in accordance with generally accepted
              Government auditing standards for financial audits and included tests of
              internal controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. Because our review was limited,
              it would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit.

              The Operations Office had not established any measurable performance
              goals relating to the handling or recording of fee withdrawals, therefore,
              we were unable to assess the effectiveness of the performance measures
              that might have been used.

              We relied on computer-generated data provided by the Operations
              Office and Westinghouse regarding fees. We did not separately evaluate
              general and application controls for this computer-generated data.
              Instead, we relied upon previous evaluations of computer-generated
              data performed during annual audits of the Operations Office's financial
              statements.




Page 11                                                     Scope and Methodology
                                                                               IG Report No. : ER-B-99-05
                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   Department of Energy Management and Administration Home Page
                                      http://www.hr.doe.gov/ig
                                                 or
                                       http://www.ma.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
